No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
MALIK NASIR
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this
30th day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1,882
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
April 30, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 30, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

UNITED STATES OF AMERICA
MALIK NASIR

KEITH M. DONOGHUE
BRETT G. SWEITZER
FEDERAL COMMUNITY DEFENDER OFFICE FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
THE CURTIS CENTER
601 WALNUT STREET
SUITE 540 WEST
PHILADELPHIA, PA 19106
KEITH_DONOGHUE@FD.ORG
BRETT_SWEITZER@FD.ORG

